CERTIFICATE OF COMPLIANCE
No._-_
CHARLES GUENTHER,
Petitioner,
vs.

LOCKHEED MARTIN CORPORATION AND
LOCKHEED MARTIN CORPORATION SALARIED
EMPLOYEE RETIREMENT PROGRAM,
Respondents.

As required by Supreme Court Rule 33. l(h), I
certify that the Petition For A Writ of Certiorari
contains 3,062 words, excluding the parts of the
Petition For A Writ of Certiorari that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on January 21, 2021.

~ F(J~

ANDREW F. PIERCE
Counsel for Petitioner
Charles Guenther

1

